DOE/IG-0472




INSPECTION                           INSPECTION OF
  REPORT                      SURPLUS COMPUTER EQUIPMENT
                                  MANAGEMENT AT THE
                                  SAVANNAH RIVER SITE




                                       JUNE 2000




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                          June 1, 2000



MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (signed)
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Surplus Computer Equipment
               Management at the Savannah River Site”

BACKGROUND

By letter dated November 1, 1999, Senator Strom Thurmond advised the Office of Inspector
General of an allegation that computer equipment containing over 40 computer hard drives
reportedly containing classified or sensitive information were surplused and sold by the
Department’s Savannah River Site (SRS). The letter raised the concern that the release of this
information might pose a threat to the national security of the United States. The management
and operating contractor at SRS, Westinghouse Savannah River Company (Westinghouse), is
responsible for the final disposal of surplus equipment, including computer hard drives.

The purpose of our inspection was to review the allegation concerning the sale of surplus
computer equipment. The objectives of our inspection were to determine whether: (1) surplus
computer equipment was disposed of in accordance with Federal and Department requirements,
and (2) Government-owned computer equipment at SRS was properly cleared of sensitive
information prior to disposal.

RESULTS OF INSPECTION

The inspection disclosed that Westinghouse failed to comply with Department and SRS
requirements for disposal of surplus computer equipment. Specifically, despite Departmental
requirements, Westinghouse had not cleared stored information from all surplus computers nor
did it certify that the computers were sanitized prior to disposal.

Prior to our inspection, Westinghouse initiated a “preliminary inquiry” when an employee of an
off-site buyer of computer equipment reported discovering a floppy disk labeled “Secret-
Restricted Data” (Secret) among equipment purchased from SRS. Westinghouse reviewed a
sample of 23 hard drives and 17 floppy disks found in surplused computer equipment off-site,
and found that “very few of the drives [in the sample] had been cleared.” SRS officials later
determined the secret disk did not contain classified information. However, some of the hard
drives and floppy disks sampled did contain Unclassified Controlled Nuclear Information
(UCNI) and other sensitive unclassified information. The release of UCNI appears to have
violated section 148 of the Atomic Energy Act. Further, computer equipment containing UCNI
is considered high risk personal property the disposal of which is subject to specific Department
of Energy requirements.
                                               2


We learned that the disk marked secret, as well as hard drives and floppy disks containing UCNI,
were among two trailer loads of computer equipment being processed for a September 1999
shipment to the People’s Republic of China (PRC). This computer equipment was reacquired
and destroyed. However, the inspection disclosed that other SRS computer equipment had been
shipped to the PRC in the July 1999 timeframe. The shipper told us that he believed the
shipment did not contain hard drives. But, he acknowledged that no inventory records of the
shipment were kept. Thus, we had no way to determine the exact content of this shipment. We
noted that over 16,000 computers and computer related items were sold publicly by SRS during
Fiscal Years 1998 and 1999.

Following the off-site discovery of computer equipment containing sensitive unclassified
information and UCNI, Westinghouse decided that all future surplus computers and related
equipment would be destroyed to prevent the release of sensitive information. We concluded
that the blanket destruction of all surplus computers and related equipment is not required by
Department of Energy property disposal regulations. Savannah River management commented
that Westinghouse has now reversed the policy of destroying all surplus computer equipment.

Our report made several recommendations to the Manager of the Savannah River Operations
Office that addressed weaknesses in the SRS property management program. Based on recurring
problems with the disposal of high risk personal property, we recommended that the Director,
Office of Procurement and Assistance Management, require a review of high risk property
management systems Department-wide. We also recommended that the Director, Office of
Security and Emergency Operations, determine whether any security vulnerabilities resulted
from the release of UCNI and security/privacy information.

Management concurred with the recommendations in our report and agreed to take corrective
actions.

cc:   Deputy Secretary
      Under Secretary
      Acting Under Secretary for Nuclear Security/Administrator for Nuclear Security
INSPECTION OF SURPLUS COMPUTER EQUIPMENT
MANAGEMENT AT THE SAVANNAH RIVER SITE
TABLE OF      Overview
CONTENTS
              Introduction and Objective …………………………………... 1

              Observations and Conclusions ……………………………... 1

              Details of Findings

              Requirements for Sanitizing/Clearing
               Computer Equipment ………………………………………. 5

              Process for Sanitizing/Clearing
               Classified Computer Equipment …………………………..          5

              Process for Sanitizing/Clearing
               Unclassified Computer Equipment ………………………..         5

              SRS Property Sales ………………………………………….                 6

              Security System Data Sold ………………………………….             6

              Computer Equipment Returned to Westinghouse ………..    8

              Weaknesses in Sanitizing/Clearing
               Computer Equipment ………………………………………                  8

              Shipment of Computer Equipment to the
               People’s Republic of China ……………………………….            10

              High Risk Disposal Requirements …………………………           10

              Shredding of Computer Equipment ………………………..          11

              Personal Property Disposal Considerations ……………...   12

              Recommendations ………………………………………...                   13

              Management Comments ……………………………….…                   14

              Inspector Comments ……………………………………...                 16

              Appendices

              A. Scope and Methodology ………………………………..              18

              B. Summary of Preliminary Inquiry Report ………………      19

              C. Selected OIG Personal Property Reports …………….     21
Overview
INTRODUCTION                          On November 1, 1999, the Office of Inspector General (OIG)
AND OBJECTIVE                         received information from Senator Strom Thurmond concerning an
                                      allegation regarding the sale of surplus computer equipment at the
                                      Savannah River Site (SRS). In summary, it was alleged that SRS
                                      surplused and sent off-site over 40 computer hard drives that
                                      reportedly contained classified or sensitive information; and that
                                      the release of this information might pose a threat to the national
                                      security of the United States. The Department’s major operating
                                      contractor at SRS, Westinghouse Savannah River Company
                                      (Westinghouse), is responsible for the final disposal of surplus
                                      equipment, including computer hard drives.

                                      The OIG initiated an inspection to determine whether: (1) surplus
                                      computer equipment is disposed of in accordance with Federal and
                                      Departmental requirements, and (2) Government-owned computer
                                      equipment at SRS is properly cleared of sensitive information
                                      before it is excessed to the public.

OBSERVATIONS AND                      In reviewing the process to surplus and dispose of computer
CONCLUSIONS                           equipment at SRS, the OIG found that Westinghouse failed to
                                      comply with Departmental and site property management
                                      requirements by not properly preparing surplus computer
                                      equipment for disposal. Specifically, Westinghouse did not clear
                                      stored information from all surplus computers and certify that the
                                      computers were sanitized prior to disposal as required by Section
                                      109-43.307-53, title 41, Code of Federal Regulations (CFR).

                                      Prior to the OIG inspection of the sale of surplus computer
                                      equipment at SRS, Westinghouse’s Computer and Information
                                      Security Section conducted a “preliminary inquiry” by sampling 23
                                      hard drives and 17 floppy disks taken from computer equipment
                                      that had been sold as excess/surplus to a private business. The
                                      November 1999 Westinghouse security report (see Summary of
                                      Report, Appendix B) found that “very few of the drives [in the
                                      sample] had been cleared.” In addition, some of the hard drives
                                      contained Unclassified Controlled Nuclear Information (UCNI) 1
                                      and other sensitive unclassified information.

                                      By selling computer equipment containing UCNI, Westinghouse
                                      appears to have violated Section 148 of the Atomic Energy Act of

1
    Unclassified Controlled Nuclear Information - Certain unclassified government information prohibited from
    unauthorized dissemination under Section 148 of the Atomic Energy Act of 1954, as amended “whose
    unauthorized dissemination, as determined by a Controlling Official, could reasonably be expected to have a
    significant adverse effect on the health and safety of the public or the common defense and security . . . .” (10
    CFR Section 1017.3)


Page 1                                                       Inspection of Surplus Computer Equipment
                                                             Management at the Savannah River Site
                                     1954. This matter has been referred to the appropriate
                                     investigative officials. Westinghouse also violated the
                                     Department’s requirements for disposing of high risk personal
                                     property. 2 Westinghouse’s Computer and Information Security
                                     Section initiated its inquiry when an employee of an off-site buyer,
                                     Allied Fabricators and Constructors, Incorporated (Allied),
                                     reported discovering a floppy disk labeled “Secret-Restricted
                                     Data” (Secret) among computer equipment purchased from SRS.
                                     SRS officials later determined this floppy disk did not contain any
                                     classified information. The owner of Allied provided the OIG a
                                     copy of a shipping notice that indicated that the floppy disk was
                                     among two trailer loads of computer equipment being processed
                                     and loaded for a September 1999 shipment to the People’s
                                     Republic of China (PRC). Westinghouse’s preliminary inquiry
                                     determined that some of this computer equipment contained
                                     sensitive unclassified and UCNI information. Computer
                                     equipment used for UCNI is considered high risk property, and its
                                     off-site release was contrary to DOE property management
                                     requirements. Based on this discovery, Westinghouse repurchased
                                     all of the computer equipment from Allied and ordered the
                                     equipment destroyed. As a result of the decision to destroy this
                                     equipment without further examination, no one can be sure exactly
                                     what information existed on the unexamined computer equipment.
                                     Also, due to the internal control weaknesses, no one can be sure
                                     exactly what information may have been on other computer
                                     equipment sold directly to other private individuals and companies.

                                     Although the computer equipment pending shipment to the PRC in
                                     September 1999 was eventually destroyed, the owner of Allied told
                                     us that, around July 1999, other SRS computer equipment was
                                     shipped to the PRC. Although he believed the shipment did not
                                     contain hard drives, the owner of Allied told us that no records
                                     were kept of the earlier PRC shipment. Therefore, the OIG had no
                                     way to determine the volume or the exact content. We noted that
                                     over 16,000 computers and computer related items were sold
                                     publicly by SRS during Fiscal Years 1998 and 1999. Also, there
                                     are approximately 147 classified computer systems in use at SRS.

                                     Following the off-site discovery of computer equipment containing
                                     sensitive unclassified and UCNI information, Westinghouse

2
    High risk personal property – Property that, because of its potential impact on public health and safety, the
    environment, national security interests, or proliferation concerns, must be controlled, and disposed of in other
    than the routine manner. The categories of high risk property are automated data processing equipment,
    especially designed or prepared property, export controlled information or property, hazardous property, nuclear
    weapon components or weapon-like components, proliferation sensitive property, radioactive property, special
    nuclear material, and unclassified controlled nuclear information. (41 CFR Section 109-1.100-51)


Page 2                                                                      Observations and Conclusions
         decided that all future surplus computers and related equipment
         would be destroyed to prevent the release of sensitive information.
         We concluded that the blanket destruction of all surplus computers
         and related equipment is not required by DOE property disposal
         regulations.

         On November 2, 1999, the DOE/Savannah River Operations
         Office (SRO) Organizational Property Management Officer who
         had been delegated authority to approve changes to the
         Contractor’s Property Management System, approved a
         Westinghouse plan to shred all surplus Government-owned
         computer equipment. The method of destruction chosen was
         shredding in a device commonly used to shred “junk” automobiles.
         At the time of our inspection, Westinghouse had begun shredding
         all surplus computers and computer equipment, including hard
         drives. SRS storage warehouses contain over 2,100 surplus
         personal computer systems (monitor, central processing unit,
         keyboard, and mouse) which had been individually boxed and
         stacked in April and July 1999 and were awaiting destruction.
         Although these systems were considered “old” technology (IBM
         386 or 486 processors and Apple Macintosh II systems), we were
         told that each system had been determined by site computer
         personnel to be operational.

         The proper disposal by DOE and its contractors of excess personal
         property, including surplus computer equipment, has been a
         concern addressed previously by the OIG and the General
         Accounting Office (GAO). The OIG has issued a number of
         reports on property disposal weaknesses within the Department.
         These reports are identified in Appendix C. In June 1995, GAO
         issued a report entitled “Department of Energy – Procedures
         Lacking to Protect Computerized Data,” Report Number
         GAO/AIMD-95-118. As a result of the GAO report, Department
         officials developed and issued policies and procedures governing
         management and control of automated data processing equipment
         (ADPE). For the purposes of this report, we will refer to ADPE as
         computer equipment. The policies and procedures included
         controls for establishing high risk personal property improvements
         for managing export controlled property, and increased
         requirements for proper disposal of computer equipment.

         Our inspection of the sale of surplus computer equipment at the
         SRS identified weaknesses in the Department’s administration of
         property management programs. As part of its implementation of
         the Government Performance and Results Act of 1993 (GPRA),
         the Department has established program goals, and measures



Page 3                                   Observations and Conclusions
         performance against these goals. Consequently, SRO established
         the Savannah River Site Strategic Plan. The plan defines strategic
         goals, key success measures, objectives and strategies in the
         business lines of National Security, Nonproliferation,
         Environmental Quality, and Science and Technology. This
         inspection has documented methods to assist the Department in
         meeting its goals and improving the efficiency of Federally funded
         programs.




Page 4                                  Observations and Conclusions
Details of Findings
Requirements for                     The Department of Energy Property Management Regulations at
Sanitizing/Clearing                  41 CFR 109-43.307-53, require that DOE automated data
Computer Equipment                   processing equipment be sanitized before being excessed to ensure
                                     that all data, information, and software has been removed. The
                                     regulations further require that designated computer support
                                     personnel certify that the equipment has been sanitized by
                                     attaching a tag to the item.

                                     Reasons for proper implementation of the above property
                                     management regulations include, among other things, protecting
                                     information such as classified Restricted Data and UCNI from
                                     unauthorized dissemination. The unauthorized dissemination of
                                     both classified Restricted Data and UCNI is prohibited by the
                                     Atomic Energy Act of 1954, as amended. The DOE implementing
                                     regulations for protecting UCNI, at 10 CFR Section 1017.3,
                                     include in the definition of “unauthorized dissemination” the
                                     intentional or negligent transfer, in any manner, by any person, of
                                     UCNI information or material to any unauthorized person.

Process for                          The process for ensuring that all classified information is properly
Sanitizing/Clearing                  cleared before classified computer systems are released to anyone
Classified Computer                  outside of SRS is similar to the process explained below for
Equipment                            unclassified computer systems. The notable exception is that
                                     Westinghouse procedures require classified storage media (i.e.,
                                     hard drives, floppy disks, etc.) to be sanitized by overwriting,
                                     degaussing3 or destroying. Specific procedures govern the
                                     application of each of these methods and when they are used.
                                     Additionally, the procedures require all markings identifying the
                                     former use of the system to be removed before the system is turned
                                     over to property management officials for disposal. Theoretically,
                                     this procedure should prevent classified media from ever reaching
                                     the property management officials who arrange for excess property
                                     sales and donations.

Process for                          Westinghouse computer security procedures assign responsibility
Sanitizing/Clearing                  to the Computer System Security Officer (CSSO) for ensuring that
Unclassified Computer                all unclassified information, to include sensitive unclassified and
Equipment                            UCNI, is properly cleared before a computer system is released to
                                     anyone outside SRS. Different organizations within Westinghouse
                                     have different CSSOs. Westinghouse computer users are also
                                     assigned similar responsibilities for ensuring that all unclassified
                                     magnetic media assigned to them are cleared before release.



3
    Degaussing is a process whereby the magnetic field is removed or neutralized.



Page 5                                                                              Details of Findings
SRS Property Sales                   Westinghouse had established a sales agreement/contract with
                                     Allied from August 1, 1998, through July 31, 1999, for purchasing
                                     and removal of excess computers and accessories from SRS at a
                                     rate of about 10¢ per pound. XS Computers 4 was responsible for
                                     receiving, managing and storing computer equipment for Allied.
                                     Additionally, the General Services Administration auctioned some
                                     of SRS’s computer equipment to the public during this time.

Security System                      During Westinghouse’s preliminary inquiry, it was determined that
Data Sold                            five of the 23 sampled hard drives contained UCNI files that are
                                     restricted from release under the Atomic Energy Act of 1954. For
                                     example, two memory disk drives examined after being sold to and
                                     then recovered from Allied still contained data from the SRS
                                     Electronic Safeguards and Security System, also know as the E3S
                                     VAX5 security system. These E3S security system memory disk
                                     drives were two of 32 memory disk drives disposed of by
                                     Westinghouse along with an E3S VAX computer in approximately
                                     mid-1999. According to a Westinghouse Safeguards and Security
                                     official, the E3S system serves as an umbrella for other software
                                     modules, covering all automated physical security for the site
                                     including alarm systems, intruder detectors, vault rooms, access
                                     control, security badge information, and closed circuit televisions.
                                     E3S information is considered UCNI.

                                     According to a Westinghouse Safeguards and Security Engineering
                                     official, the E3S memory disk drives that were disposed of served
                                     as storage devices similar in operation to the 3½ inch disks utilized
                                     by most personal computers. The memory disk drives are
                                     physically much larger than a floppy disk, and had a storage
                                     capacity of approximately 300 megabytes. According to the
                                     engineering official, the memory disk drives stored executable
                                     files, maps and database tables, and archived historic information.
                                     These memory disk drives had been located within the SRS
                                     Central Alarm Station and were connected to the E3S Local Area
                                     Network and Wide Area Network.

                                     During our inspection, Westinghouse was unable to locate the
                                     other 30 E3S memory disk drives that had been excessed. In the
                                     conclusions of its November 1999 preliminary inquiry,
                                     Westinghouse’s Computer and Information Security Section

4
    XS Computers is a subsidiary of Allied Fabricators.
5
    VAX computers are 32-bit supermicrosystems manufactured by Digital Equipment company and are designed to
    support a high-performance, multi-programming environment. Multi-programming enables simultaneous
    execution of many applications and interactive development of applications programs. VAX systems are
    designed for real-time, timesharing, and batch applications and offer a choice of operating systems, high-level
    languages, information management software, and programmer productivity tools.


Page 6                                                                                     Details of Findings
                        assumed that the E3S data had been totally compromised to an
                        adversary, but concluded that the potential impact of all 32 E3S
                        memory disk drives being lost was minimal. With respect to the
                        compromised memory disk drives, the Westinghouse preliminary
                        inquiry report stated that “Information that could be revealed is the
                        social security numbers of those individuals with access to the E3S
                        system.” Further, the report stated that “The alarm sectors of the
                        E3S system detailing what alarms are in a specific monitoring
                        sector would be revealed” and “The software used to monitor the
                        E3S system is revealed . . . .” The report noted that no passwords
                        were revealed and that the software involved was purchased
                        commercially. The report stated that no connections existed
                        between the E3S system and SRS classified computing systems
                        and concluded that, in the opinion of the writers, an adversary
                        could not use the information revealed by this compromise to
                        successfully attack SRS’s security system.

                        We believe that the compromise of the 32 memory disk drives
                        from the SRS umbrella security system is a significant security and
                        privacy concern which warrants further review by security officials
                        with detailed knowledge of physical, personnel, and computer
                        security safeguards systems. Therefore, we briefed officials from
                        DOE’s Office of Security and Emergency Operations on this issue
                        and are recommending they conduct or direct an appropriate
                        review. Although Westinghouse has taken some action with
                        respect to the security of the E3S in its current configuration,
                        additional actions may be necessary, to include, at a minimum,
                        notifying the personnel involved that their social security numbers
                        and/or other personal identifying information may have been
                        compromised so they can take appropriate precautions.

The SRS VAX systems
in the photograph are
similar to the system
sold by Westinghouse.




Page 7                                                                 Details of Findings
Computer Equipment                   In addition to the equipment identified by Westinghouse, the
Returned to                          owner of Allied provided us with a listing of other hard drives,
Westinghouse                         optical media discs, 6 and diskettes that he had voluntarily returned
                                     at various times to Westinghouse officials. The list included 47
                                     hard drives, 63 optical media discs, 16 5¼ inch floppy diskettes,
                                     and 25 3½ inch floppy diskettes. Allied’s owner stated that he had
                                     returned the listed items to Westinghouse between June and
                                     October 1999. He stated that he had directed his employees to
                                     look for and pull hard drives during their walk through the storage
                                     area because of the concerns raised after locating and returning the
                                     63 optical media discs. He had read recent newspaper articles of
                                     instances where security might have been jeopardized because
                                     government sensitive information had been released to China.
                                     Allied’s owner told us he returned the diskettes and drives he had
                                     received from Westinghouse because he was concerned they might
                                     also contain sensitive information. The OIG was informed by
                                     Westinghouse officials that Westinghouse had begun developing
                                     procedures to prevent the release of sensitive computer equipment
                                     in the future. With respect to the computer equipment returned by
                                     Allied’s owner, a Westinghouse manager told us that all of these
                                     hard drives, optical media discs, and floppy diskettes have since
                                     been destroyed. Consequently, it is impossible to determine if
                                     sensitive information was contained on the drives/diskettes and the
                                     optical media discs.

Weaknesses in                        Despite DOE regulations, Westinghouse did not certify that
Sanitizing/Clearing                  computer equipment was properly cleared before being
Computer Equipment                   excessed, and that diskettes were properly overwritten or
                                     destroyed. Also, Westinghouse did not ensure all computer
                                     equipment had a single review by the responsible official, to
                                     ensure it was cleared before it was sold. Our finding is consistent
                                     with the Westinghouse security preliminary inquiry report.
                                     Specifically, the report states:

                                              It is apparent that this responsibility was exercised
                                              differently by different organizational CSSOs.
                                              Some would take the initiative to contact Computer
                                              and Information Security or Digital Controls and
                                              Services [Systems] (DC&S) for assistance in
                                              clearing/degaussing the drives and excessing the
                                              systems; some however, apparently thought that this
                                              would be done after they placed the equipment in
                                              Excess.

6
    Optical media discs – A storage medium from which data is read and to which it is written by lasers. Optical discs
    can store much more data (6 billion bytes) than most portable magnetic media, such as floppies.



Page 8                                                                                      Details of Findings
                                     The Manager of Westinghouse’s Digital Controls and Systems
                                     (DC&S) Department, tasked with providing technical assistance
                                     and expertise to those who are clearing hard disk drives for non-
                                     personal computers, 7 stated that users of computer equipment do
                                     not always request DC&S services to clear hard drives. The
                                     manager said if users or owners of computer equipment felt that
                                     they could clean their system then they would not request DC&S
                                     services for clearing the computer equipment.

                                     We noted that there are approximately 147 classified computer
                                     systems at SRS. The OIG did not find evidence during this
                                     inspection that classified information or Restricted Data had been
                                     inappropriately released. However, this inspection did not
                                     specifically review the disposition of all classified systems
                                     surplused/excessed in recent years. The classified computer
                                     equipment disposal process may have experienced weaknesses
                                     similar to those in the disposal process for computers used for
                                     UCNI, as demonstrated by the discovery at Allied of the floppy
                                     disk labeled “Secret - Restricted Data.” Since the computer
                                     equipment recovered by Westinghouse from Allied was destroyed
                                     without further examination, no one can be certain what
                                     information, if any, was on the unexamined equipment when it was
                                     destroyed. We also do not know what information may have been
                                     contained in computers disposed of to other private individuals or
                                     companies, e.g., school donations, auctions, etc.

                                     Westinghouse officials recently awarded a contract to exchange
                                     Government-owned personal computers (desktops) for leased
                                     systems. This will involve approximately 12,000 personal
                                     computers used by Westinghouse personnel. With respect to
                                     clearing information from leased computer drives, the terms of the
                                     contract assign the contractor responsibility for clearing personal
                                     computer hard drives and attaching a label to the system prior to
                                     transferring the system for final disposal. Personal computers used
                                     by DOE Federal and contractor personnel, with the exception of
                                     Westinghouse, will not be included in the leasing program.




7
    Non-personal computers – Non-singular user ADP system, generally a larger item consisting of the central
    processing unit (CPU), expansion cards, etc., that form a composite workstation (i.e., VAX systems, UNIX
    systems, stations/servers).


Page 9                                                                                     Details of Findings
Shipment of Computer   The floppy disk labeled “Secret-Restricted Data,” and other
Equipment to the       computer equipment found by Westinghouse and later determined
People’s Republic      to contain sensitive unclassified and UCNI information, was
of China               originally pending shipment to the PRC. Specifically, the owner of
                       Allied provided us a copy of a shipping notice indicating that two
                       trailer loads of computer equipment received from SRS were being
                       processed for shipment to the PRC. The shipping notice showed
                       that a California company purchased the equipment for delivery to
                       Nanhal Sanshan Harbor, a region within the PRC. Westinghouse
                       was unable to provide documentation indicating the planned
                       shipment had been cleared of sensitive information. The sale of
                       uncleared computer equipment that contained UCNI information
                       appears to have violated the Atomic Energy Act of 1954. It also
                       violated DOE disposal requirements for high risk property.
                       Further, though this pending shipment to the PRC was stopped,
                       two trailer loads of previous SRS excessed computer equipment
                       had been shipped to the PRC around July 1999.

High Risk Disposal     Computer equipment used to process UCNI is subject to
Requirements           Department regulations which govern high risk property disposal.
                       Property management regulations and DOE policy require
                       computer equipment used for UCNI to be identified, marked, and
                       controlled to assure proper treatment at disposal and to prevent
                       unauthorized disclosure. Westinghouse property management
                       officials responsible for disposal of the computer equipment had
                       considered the equipment to be scrap without meeting high risk
                       property disposal requirements. Specifically, Allied’s owner told
                       us two containers with former SRS computer equipment he
                       purchased as scrap, had been shipped to the PRC. The owner
                       stated that the shipment was “around July 1999;” however, he did
                       not have a copy of the shipping document nor the dollar amount of
                       the sale. He believed the shipment included monitors, keyboards,
                       cables, but no hard drives. The owner said that due to press reports
                       regarding Chinese espionage, he contacted a Westinghouse
                       procurement official and informed the official that the business had
                       a shipment bound for China. He reportedly was told that a
                       Westinghouse procurement official would contact him if there
                       were any concerns. Allied’s owner also said he waited
                       approximately two weeks for the official to contact him before he
                       allowed the computer equipment to be shipped to the PRC.

                       The Westinghouse export control officer told us that she had been
                       contacted by the Westinghouse procurement official regarding this
                       pending shipment to the PRC. The export control official stated
                       that she then contacted the Westinghouse General Counsel’s office
                       and informed an attorney that she was attempting to locate the



Page 10                                                               Details of Findings
                          broker responsible for arranging a shipment to the PRC.
                          According to the export control official, the procurement official
                          later informed her that he had not been given the name of the
                          broker and the shipment had already taken place. Because the
                          export control official was never able to identify the broker prior to
                          shipment, she was unable to determine if the broker was on the
                          Federal Denied Parties List that identifies individuals and
                          companies whose export privileges have been denied.
                          Subsequently, the export control official identified the broker and
                          confirmed the broker was not on the Federal Denied Parties List.

Shredding of Computer Once the sale of computer equipment containing sensitive
Equipment             unclassified and UCNI information to Allied was discovered,
                      Westinghouse officials repurchased and destroyed all computer
                      equipment sold to or located at Allied.

                          We noted that Westinghouse had paid Allied over $59,000 and was
                          awaiting a decision to make final settlement for the computer
                          equipment repurchased. Of the over $59,000 paid, over $9,000
                          was paid for withdrawal of a pending shipment to the PRC and
                          $50,000 was paid as “good faith” money for retrieving computer
                          equipment from Allied while awaiting a final repurchase
                          agreement. According to the sales agreements, Westinghouse
                          received approximately $41,000 for computer equipment sold to
                          Allied during execution of the contract. Later, Westinghouse
                          officials requested permission from SRO to shred all surplus
                          computer equipment components reasoning that it takes too many
                          staff-hours to validate which equipment was a security risk.

                          On November 2, 1999, the DOE Organizational Property
                          Management Officer approved a plan to allow Westinghouse to
                          shred all components of surplus Government-owned computer
                          equipment. Upon the Organizational Property Management
                          Officer’s approval, Westinghouse began the process of shredding
                          all computer equipment components. Subsequent to the approval
                          by SRO, Westinghouse began transporting all excess computer
                          equipment to West Columbia, South Carolina, for destruction in a
                          large shredder.




Page 11                                                                   Details of Findings
Allied’s outside storage area.
The computer equipment at
right was later repurchased
and shredded by
Westinghouse.




Allied’s indoor storage
showing equipment in good
condition that was later
repurchased and shredded
by Westinghouse.




Personal Property                The blanket destruction of all surplus computer equipment is not
Disposal                         required by property disposal regulations. As stated earlier, DOE
Considerations                   regulations require that high risk personal property, such as
                                 computer equipment used for UCNI, be identified, marked, and
                                 controlled to assure proper treatment at disposal. Normally, non-
                                 sensitive surplus computer equipment is disposed of through sales
                                 at prices which are fair and reasonable, and not disposed of for less
                                 than could reasonably be expected to be obtained if the personal
                                 property was offered for competitive sale.

                                 During our inspection, the computer equipment that had already
                                 been sent or that was awaiting shipment to the shredder contractor
                                 included storage arrays, printers, plotters, disk drives, controllers,
                                 mini-CPUs, tape drives, and video printers. Additionally, we
                                 observed that a total of over 2,100 PCs including IBM (386 and


Page 12                                                                           Details of Findings
                  486 processors) and Apple Macintosh II systems had been boxed
                  and stacked in April and July 1999 and were awaiting shredding.
                  Although the 2,100 PCs were considered by Westinghouse to be
                  old technology, we were told that each PC (CPU, monitor,
                  keyboard, and mouse) had been determined to be operational prior
                  to boxing.

Recommendations   We recommend that the Director, Office of Procurement and
                  Assistance Management:

                  1. Require a review of the Department’s Property Management
                     Systems to ensure disposal of High Risk Personal Property is
                     processed in accordance with the Department’s Property
                     Management Regulations.

                  We recommend the Director, Office of Security and Emergency
                  Operations Office:

                  2. Determine whether there are any possible security
                     vulnerabilities resulting from the release of UCNI and
                     security/privacy information.

                  We recommend that the General Counsel:

                  3. Evaluate whether the public release of personal identifying
                     information (such as badge office data and social security
                     numbers) by Westinghouse was contrary to the Privacy Act
                     and take appropriate action regarding the legal implications of
                     this release.

                  We recommend that the Manager, Savannah River Operations
                  Office:

                  4. Evaluate Westinghouse’s actions in disposing of
                     computer equipment, disallow the costs incurred for
                     any actions not consistent with contract terms, and
                     consider these actions when determining payments
                     from the available fee pool.

                  5. Require Westinghouse officials to ensure CSSO’s or
                     custodians inspect and certify all computer equipment for
                     proper clearance prior to turning in the equipment for disposal.

                  6. Require Westinghouse officials to ensure all computer
                     equipment will be checked for certification to confirm that




Page 13                                                        Recommendations
                 magnetic media and diskettes are properly cleared before being
                 declared excess.

             7. Require Westinghouse officials to review contract
                requirements for selling excess computer equipment to ensure
                terms and conditions of future sales adhere to Departmental
                requirements.

             8. Conduct a thorough review of Savannah River’s High Risk
                Personal Property control process and its excess sales processes
                as it relates to high risk property.

             9. Require Westinghouse to comply with the Department’s
                Property Management Regulations regarding disposal of High
                Risk Personal Property by submitting written procedures for
                approval by the Contracting Officer.

             10. Determine whether Westinghouse’s policy of shredding all
                 computer equipment is in the best interest of the Government.
                 If this policy is not in the best interest of the Government,
                 direct Westinghouse to cease its current policy.

             11. Require Westinghouse to seek approval of the Contracting
                 Officer prior to implementing any changes to its property
                 management policy.

             12. Evaluate the process used by Westinghouse to protect Privacy
                 Act information which is maintained on behalf of the
                 Department.

Management   Departmental management provided responses to the draft report
Comments     and concurred with all the report’s recommendations. Specific
             responses are outlined below.

             The Director, Office of Procurement and Assistance Management,
             stated that his office concurred with Recommendation 1. The
             Director stated his office “will require all field sites to review their
             federal office/contractor’s property management procedures to
             ensure that High Risk Personal Property is being disposed of in
             accordance with the Department’s Property Management
             Regulations (DOE/PMRs).” The Director also stated the “field
             sites will be required to provide a summary of their findings for
             each federal office/contractor reviewed. If necessary,
             Headquarters can then do a random sampling of the federal
             offices/contractors to ensure the procedures are efficient, cost-
             effective and in compliance with Regulations.”



Page 14                                              Management Comments
          The Director, Office of Security and Emergency Operations, stated
          that his office concurred with Recommendation 2. The Director
          stated his office is planning to organize, schedule and conduct a
          joint Office of Safeguards and Security and Environmental
          Management damage assessment investigation to be completed by
          June 15, 2000. The investigation will focus on the potential
          compromise of classified information, UCNI, the SRS automated
          access control and physical security system, and other possible
          security vulnerabilities.

          The General Counsel’s Office stated they do not have any
          comments or objections regarding Recommendation 3.

          Savannah River Operations (SRO) management concurred with
          Recommendations 4-12, and provided general comments on the
          contents of the draft report. SRO agreed to determine appropriate
          action for Recommendation 4 by June 30, 2000. For
          Recommendations 5-7, 9 and 11, SRO agreed to take appropriate
          action by May 31, 2000. For Recommendation 8, SRO agreed to
          conduct a review of the High Risk personal property control
          process by July 31, 2000.

          For Recommendation 10, SRO agreed and stated that actions to
          cease the practice of shredding computer equipment had already
          been taken. The SRO Manager stated:

                 The Report implies that there was no basis for the
                 destruction of surplus computer equipment on hand,
                 and that the practice of shredding all surplus
                 computer scrap is unwarranted. DOE has been
                 advised by WSRC [Westinghouse] that the initial
                 decision to destroy all computer equipment has
                 subsequently been rescinded and currently, no
                 equipment is being shredded pending a
                 re-evaluation of the site policy. In all likelihood,
                 surplus computer equipment such as monitors,
                 keyboards, cables and printers will be sold in an “as
                 is” condition or as scrap depending on condition.
                 Central Processing Units (CPU’s) and media will
                 likely be destroyed. The decision to destroy the
                 equipment that was recovered from Allied was
                 based on an economic analysis performed at that
                 time that supported destruction as the most cost
                 beneficial disposition. Property Management
                 procedures related to the disposition of surplus




Page 15                                          Management Comments
                   computer equipment are being revised to address
                   the lesson’s learned from this incident.

            In respect to the shredding of computer equipment, the SRO Chief
            Financial Officer stated:

                   …it should be noted that this action is not a
                   common practice at Savannah River Site and that it
                   was in fact weighed to be the most feasible and cost
                   effective means at the time in order to eliminate any
                   further risk. In the two main shredding incidents, a
                   High-Risk reevaluation of said commodities would
                   cause action to have each unit be considered for
                   review. In addition, component sorting and
                   reprocessing through the disposal system could
                   have been very labor intensive. It was concluded
                   that the cost incurred to provide for the safe
                   handling and resource needs to perform this
                   intensive task would not be prudent when
                   considering the low resale value for non-Y2K
                   compliance computers and their components.

            SRO also provided general comments on the draft report that
            conveyed several distinct concerns. SRO requested that our report
            include a statement that the OIG inspection did not disclose any
            situation where classified information had been sent off-site or
            inadvertently transported overseas in the process of computer
            equipment disposal at SRS.

            SRO also stated that classified information is protected differently
            than unclassified information reducing the chance of inadvertent
            disclosure of classified information. SRO requested that the OIG
            recognize in the report “differences in the levels of controls over
            classified information from those of unclassified, sensitive
            information.”

INSPECTOR   We consider management’s comments to our recommendations
COMMENTS    to be responsive. Where appropriate, we have incorporated
            management’s comments into the final report.

            With respect to SRO’s concerns regarding classified information,
            the OIG recognizes there are differences in the levels of control
            over classified information and unclassified sensitive information.
            However, despite these controls, Westinghouse allowed a floppy
            disk labeled “Secret-Restricted Data” to be sold and transported
            off-site. At the time the disk was discovered it was included in a



Page 16                                               Inspector Comments
          pending shipment to the PRC. SRS officials later determined this
          disk did not contain classified information. Nevertheless, this
          situation raises concerns about the internal controls that were in
          place for protecting classified information. Additionally, not all of
          the computer equipment repurchased from Allied was examined
          before it was destroyed. Further, over 16,000 computers and
          computer related items were sold publicly by SRS during Fiscal
          Years 1998 and 1999. Without the examination of all computer
          related items sold by SRS, both publicly and through contract to
          Allied, we were unable to conclude whether classified information
          had been sent off-site or inadvertently transported overseas.




Page 17                                             Inspector Comments
Appendix A
SCOPE AND     The inspection was initiated at the Savannah River Operations
METHODOLOGY   Office in Aiken, South Carolina, in November 1999.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. As part of our inspection, we interviewed
              officials at DOE’s Savannah River Operations Office and
              Westinghouse Savannah River Company. We also reviewed
              pertinent records and documents pertaining to Westinghouse’s
              Computer Security, Export Control, and Asset Management
              Operations.




Page 18                                              Scope and Methodology
Appendix B
                          SUMMARY OF PRELIMINARY INQUIRY REPORT
                                    REPORT #PL 99-063

On November 11, 1999, Westinghouse’s Computer and Information Security Section issued a
preliminary report documenting a security inquiry conducted August through October 1999.
This report informed Westinghouse officials that a 5-1/4 inch floppy disk labeled Secret
Restricted Data was found in a disposed VAX (supermicrosystem manufactured by Digital
Equipment Corporation) system which had been sold to Allied Fabricators. The VAX was
formerly used at the Site’s Tritium Facilities to manage the Automated Reservoir Management
System (ARMS) 8 program. Later, Westinghouse officials determined that the disk was used to
boot up the system from the console. The officials concluded that the disk had remained with the
system for a prolonged period of time and would not have been any use to the system in its
present configuration. The disk was labeled “Secret” because it was associated with a classified
system and required to have been marked to the highest level available for data the system would
be able to process. After further review by Westinghouse’s Computer Security officials, the disk
was determined not to contain any classified files because the space on the disk was used for
unclassified boot-up system information.

As a result of this incident, a Westinghouse Computer Security official visited Allied to
determine if there was other media that might have been considered as classified or sensitive and
sold by SRS officials. The official noticed one trailer filled with computer parts, and determined
that the trailer was about to be shipped from the location. Also, the official stated that although
no items were found marked as classified or sensitive, several items were returned to SRS for
inspection and evaluation, including hard drives and various floppy disks. The inquiry report
stated that “When the installed drives were found it was not apparent, in most cases, whether or
not they had been cleared/degaussed in any way until after the installed drives were returned to
the site. Upon further inspection, it was discovered that very few of the drives had been
cleared.”

Subsequently, a meeting was held with Westinghouse’s Computer Security, Export Control,
Property Management, and Procurement officials. The DOE/SRO’s Computer and Information
Security Official also attended this meeting. Westinghouse’s management personnel decided to
halt pending shipments of two trailer loads of computer equipment to the PRC and required
Allied’s owner to delay any movement until further notice was given by Westinghouse. The
computer equipment loaded on these trailers included monitors, mainframe computers,
keyboards, and miscellaneous cards, and cables. Later, an agreement was reached between
Westinghouse officials and the owner of Allied that allowed Westinghouse to pay the price of
the negotiated sale for the two trailer loads of computer equipment.




8
    Automated Reservoir Management System (ARMS) – ARMS is an online reservoir production and data archive
    system that provides real-time reservoir tracking and inventory, process calculations, operator instructions, and
    data entry screens to capture, store, and manage reservoir-related processing information. ARMS does not
    provide process control but verifies data and sequence of operation.



Page 19                                                                   Summary of Preliminary Inquiry
Westinghouse officials determined that most drives had not been cleared and many of the floppy
disks that had not been damaged due to weathering contained operational files, some of which
revealed sensitive personnel information. As noted by Westinghouse’s preliminary inquiry:

       Sensitive unclassified employee personnel information was found in the retrieved
       media from a desk top personal computer. Two VAX unit memory disks were
       found which contained sensitive unclassified SRS E3S security system data. The
       E3S VAX along with 32 memory disks had been excessed and sold to Allied
       Fabricators in the same time period as the ARMS VAXs. The E3S system is
       approved for up to Unclassified Controlled Nuclear Information (UCNI).

In October 1999, as a result of information found on hard drives and floppy disks, Westinghouse
officials repurchased all computer equipment sold to or located at Allied Fabricators and
subsequently transported the retrieved equipment to West Columbia, South Carolina, for
shredding. Westinghouse officials said they witnessed the shredding of this computer
equipment.




Page 20                                                    Summary of Preliminary Inquiry
Appendix C
              SELECTED OIG PERSONAL PROPERTY REPORTS

IG-0455       Inspection Report on “Inspection of the Sale of a Paragon Supercomputer by
              Sandia National Laboratories,” December 1999

IG-0385       “Special Audit Report on the Department of Energy’s Arms and
              Military-Type Equipment,” February 1996

IG-0344       “Summary Report on Department of Energy’s Management of Personal
              Property,” March 1994

IG-0343       “Inspection of the Management of Excess Personal Property at Sandia
              National Laboratory, Albuquerque, New Mexico,” March 1994

IG-0329       “Inspection of Management of Excess Personal Property at Rocky Flats,”
              May 1993

ER-B-98-07    Audit Report on “Personal Property at the Oak Ridge Operations Office and
              the Office of Scientific and Technical Information,” April 1998

WR-B-97-07    “Audit of Desktop Computer Acquisitions at the Idaho National Engineering
              and Environmental Laboratory,” August 1997

INS-L-93-01   Inspection Report on “Controls Over Personal Computer Equipment at the
              Savannah River Site,” January 1993




Page 21                                                        Selected OIG Reports
                                                                    IG Report No. DOE/IG-0472

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
